M'S**

No. 20-7715
IN THE
SUPREME COURT OF THE UNITED STATES

IN RE RICHARD DECARO - Petitioner

ORIGINAL EXTRAORDINARY WRIT OF HABEAS CORPUS
PURSUANT TO 28 U.S.C. §1651(A) OF THE ALL WRITS ACT

PETITION FOR REHEARING

Richard DeCaro, 24317-044
Federal Correctional Institution
Post Office Box 6000
Florence, Colorado 81226

r

J

IN THE
SUPREME COURT OF THE UNITED STATES
ORIGINAL EXTRAORDINARY WRIT OF HABEAS CORPUS
PETITION FOR REHEARING
Pursuant to Rule 44 of this Court, Petitioner Richard DeCaro respectfully
petitions for rehearing of the denial for leave to proceed in forma pauperis
and the dismissal of his petition for an original extraordinary writ of habeas
corpus issued on May 3, 2021. Mr. DeCaro moves this Honorable Court to grant
this petition for rehearing and consider the merits of his case.
Petitioner will prove that (1) The original petition is a criminal matter
and not frivolous or malicious; the claims are rooted in the Constitution and
this

Court's

jurisprudence.

(2)

The

original

petition

is

one

of Actual

Innocence because my sentence was imposed in violation of the Constitution and
laws of the United States, and the sentencing court was without jurisdiction
to impose such sentence.
Pursuant to Supreme Court Rule 44.1, this petition for rehearing is filed
within 25 days of this Court's decision.
REASONS FOR GRANTING THIS PETITION
(1)
matter.

Petitioner would like to make clear that his case is a criminal
Unlike

the

45

noncriminal

cases

cited

in Martin v.

District of

Columbia Court of Appeals, 506 U.S. 1 (1992)(per curiam), I have only filed
two pro se petitions in this Court in 29 years. The first challenged the
constitutionality of the conviction; it was filed July 17, 2018, sorry it was
malicious. The second, this petition, challenges only the constitutionality of
the sentence, as I am actually innocent of the sentence because the sentence
was imposed in violation of the Constitution and laws of the United States and
the sentencing court was without jurisdiction to impose such sentence. The
original petition establishes by clear and convincing evidence that, but for

u

,

-if

the constitutional errors, no reasonable fact finder would have found Mr.
DeCaro guilty of the underlying offense of first degree murder. The claims are
rooted in the Constitution and this Court's jurisprudence, so they cannot
possibly be construed as frivolous or malicious.
(2) The original petition asks this Court to resolve two Constitutional
violations of first impression:
First, Mr. DeCaro's sentence violates the Ex Post Facto Clause because he
was sentenced to the amended statute, first degree murder, mandatory life,
rather than the statute in effect at the time of the alleged offense, second
degree murder, any term of years of for life.
This Court made clear that "any term of years or for life" is in fact
second degree murder and the Court also made clear that the Guideline range
for a person with no criminal history, such as petitioner, is 168-210 months;
I have served 372 months to date with good time.
The sentencing court was without jurisdiction to impose a sentence of
first degree murder, mandatory life; leaving petitioner actually innocent of
the enhanced sentence. Id. Original Petition No. 20-7715 at page 4, 1.
Second, Mr. DeCaro's enhanced sentence of first of degree murder violates
the

Double

Jeopardy

Clause

because

the federal statute requires

as an

essential element of the offense a "violation of the laws of any state.” This
caused the district court to instruct the federal jury to re-adjudicate the
identical state law I was found not guilty of violating by the state jury,
violating the Double Jeopardy Clause.
This Court said that the sentencing enhancing factors of serious bodily
injury and death are "elements of separate offenses that must be charged in
the indictment, submitted to a jury, and proven beyond a reasonable doubt."
Mr.

DeCaro's

indictment

did

not

charge

murder,

but

the

jury

was

instructed of the elements of the Missouri statute of first degree murder
2.

causing a variant in his indictment.
Because Mr. DeCaro was not indicted for the sentencing enhancing factors
of serious bodily injury or death and was found not guilty of first degree
murder,

second degree murder (both included murder for hire),

aiding and

encouraging, and aiding and encouraging a burglary that caused death by the
state jury, the federal jury is barred by the Constitution of re-adjudicating
the same Missouri laws; leaving Mr. DeCaro actually innocent of the enhanced
sentence. Id. Original Petition No. 20-7715 at page 6, 2.
CONCLUSION
Mr.

DeCaro

respectfully

prays

this

Court

grant

this

petition

for

rehearing and make a ruling on the merits of this case granting him relief.
Respectfully submitted on May 6, 2021.

'Richard DeCaro, pro se

CERTIFICATE OF COUNSEL
I,

Richard DeCaro,

pro se, hereby certify that I am unrepresented by

counsel and this petition for rehearing is presented in good faith and not for
delay.

Richard DeCaro, pro se

3.

